      Department of Homeland Security





    The California Department of Parks and Recreation 

   Sacramento, California, Successfully Managed FEMA's 

               Public Assistance Grant Funds 





DS-13-01                                    November 2012

                  _            ; OFFICE OF INSPECfOR GENERAL
                   "-l.i" ••'¥J.   Department of Homeland Security
                                    Washington, DC 20528 J www.oig.dhs.gov



                                   November 14, 2012

MEMORANDUM FOR,                    Nancy Ward



                                   J
                                       ional Administrator, Region IX
                   c.~F                e~              cy Ma        ment Agency

FROM:                      '--.      ~
                                   D. Mi       I ear
                                   Assis ant Inspector General
                                   Office of Emergency Management Oversight

SUBJECT:                           The Cali/ornla Department of Parks and Recreation
                                   Sacramento, Cali/amioi 5uccessjuiJy Managed
                                   FEMA's Public Assistance Gront Funds
                                    FEMA Disaster Number 1546-DR-CA
                                    Audit Report Number D5-13-01

We audited Public Assistance {PAl grant funds awarded to the California Department of
Parks and Recreation, (Department), Public Ass istance Identification Number 000-
UBRA6-00. Our audit objective was to determine whether the Department accounted
for and expended Federal Emergency Management Agency (FEMA) grant funds
according to Federal regulations and FEMA guidelines.

The Department received a PA award of $670,251 from the California Emergency
Management Agency (Cal EMA), a FEMA grantee, for damages resulting from severe
storms, flooding, mudslides, and landslides, which occurred from March 29 to April 16,
       1
2006. The award provided 75 percent FEMA funding for four large and eight small
         2
projects. The audit covered the period from March 29, 2006, to October 12, 2012. We
audited two large projects that incurred charges totaling $280,112. We also performed
a limited review of three small projects and two large projects to identify unused funds
that should be put to better use (see Exhibit, Schedule of Audited Projects). As of the
date of this report, Cal EMA had completed its review and FEMA was reviewing the
Department's final claim.

We conducted this performance audit between July 18 and October 12, 20l2, pursuant
to the Inspector General Act of 1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the



I At the time of the disaster, the grantee's name was the Governor's Office of Emergency Services, which

became part of Cal EMA on January 1, 2009.
~ Federal regulation s In effect at the time of the disaster set the large project threshold at $57,500.
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objective. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions. To conduct this
   audit we applied the statutes, regulations, and FEMA policies and guidelines in effect at
   the time of the disaster.

   We interviewed FEMA, Cal EMA, and Department officials; reviewed judgmentally
   selected project costs (generally based on dollar value); and performed other procedures
   considered necessary to accomplish our audit objective. We did not assess the
   adequacy of the Department’s internal controls applicable to its grant activities because
   it was not necessary to accomplish our audit objective. We did, however, gain an
   understanding of the Department’s method of accounting for disaster-related costs and
   its policies and procedures.


                                       RESULTS OF AUDIT

   The Department successfully managed FEMA’s PA grant funds. Department officials
   generally expended and accounted for PA funds according to Federal grant regulations
   and FEMA guidelines for the two projects we audited, and can return $254,145 in unused
   funds.

   Funds Not Used

   Department officials said that during the FEMA closeout, they will not be claiming cost
   reimbursements for three small and three large projects totaling $254,145 (see table 1).

                               Table1. Summary of Funds Not Used
                   Project      Project Award   Project Charges  Funds Not
                   Number          Amount           Claimed        Used
                  Small Projects
                      145              $12,364                          $12,364
                      260               48,969                           48,969
                      372               46,655                           46,655
                  Large Projects
                      368               60,000                           60,000
                      413              211,549           $169,218        42,331
                      603              103,413             59,587        43,826
                     Total           $482,950            $228,805      $254,145


www.oig.dhs.gov                                  2                                      DS-13-01
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Federal regulations stipulate the following:

       •	 Federal appropriations laws and the Statement of Federal Financial Accounting
          Standards (SFFAS) require Federal agencies to record obligations in the
          accounting records on a factual and consistent basis.3 That is, the agency must
          increase or decrease obligated funds when probable and measurable
          information becomes known (7 Government Accountability Office-Policy and
          Procedures Manual § 3.5.D; B-300480, April 9, 2003, and SFFAS Number 5,
          paragraphs 19, 24, 25, and 29). Agencies must document both the initial
          recordings and the adjustments to recorded obligations.

       •	 Final payment of the Federal share for small projects will be made to the grantee
          upon approval of the Project Worksheet. The grantee must certify that all such
          projects were completed in accordance with FEMA approvals. The Federal
          payment for small projects shall not be reduced if all of the approved funds are
          not spent to complete a project. However, failure to complete a project may
          require that the Federal payment be refunded (44 CFR 206.205 (a)).

   Department officials explained that of the three small projects, another Federal agency
   completed Project 372, and the Department was unable to obtain the required permits
   for Projects 145 and 260.

   Of the three large projects, the Department was not able to develop an alternate repair
   solution for Project 368 within the time approved by FEMA. The Department completed
   Projects 413 and 603 under budget, and will not incur further costs.

   Deobligating unneeded funds in a timely manner—

       •	 Releases funds to cover cost overruns on other projects associated with the
          disaster;

       •	 Provides a more accurate status of PA program costs for a disaster; and

       •	 Is consistent with appropriations law and SFFAS Number 5, which requires
          accurate recording, and support of obligations/liabilities in FEMA’s accounting
          system.

   Therefore, FEMA should deobligate $254,145 in unneeded PA funds for Projects 145,
   260, 368, 372, 413, and 603, and put those funds to better use. The Department had no

   3
    U.S. Government Accountability Office’s Principles of Federal Appropriations Law, 3rd edition, volume II,
   February 2006, chapter 7, section B: Criteria for Recording Obligations (31 U.S.C. § 1501).

www.oig.dhs.gov                                        3                                        	       DS-13-01
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
   comment on the finding. Additionally, the Department submitted closeout
   documentation identifying unused funds, which is consistent with the recommendations
   made in this report.


                                    RECOMMENDATION

   We recommend that the FEMA Region IX Administrator:

   Recommendation: Deobligate $254,145 (Federal share $190,609) from Projects 145,
   260, 368, 372, 413, and 603 and put those Federal funds to better use.


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the results of this audit with Department officials during our audit, and
   have included their comments in this report, as appropriate. We also provided a written
   summary of our finding and recommendation in advance to the Department officials on
   October 12, 2012; the Department did not require an exit conference. Department
   officials agreed with the finding. FEMA and Cal EMA officials withheld further comment
   until after we issue our final report.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for the recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendation. Until we receive and
   evaluate your response, we will consider the recommendation open and unresolved.

   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Major contributors to this report are Humberto Melara, Western Region Audit Director;
   Louis Ochoa, Audit Manager; Renee Gradin, Auditor-in-Charge; Paul Sibal, Auditor; and
   Elizabeth Finn, Program Analyst.

   Please call me with any questions, or your staff may contact Humberto Melara, Western
   Region Audit Director at (510) 637-1463.




www.oig.dhs.gov                              4                                       DS-13-01
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security
                                                                                 EXHIBIT


                                 Schedule of Audited Projects 

                              March 29, 2006, to October 12, 2012 

                        California Department of Parks and Recreation 

                              FEMA Disaster Number 1646-DR-CA 



     Project      Project Award          Project Charges      Project Costs Recommended
     Number          Amount          Claimed and Reviewed           for Deobligation
       145*              $12,364                                                $12,364
       260*               48,969                                                 48,969
       368                60,000                                                 60,000
       372*               46,655                                                 46,655
       413               211,549                   $169,218                      42,331
       603               103,413                     59,587                      43,826
       697                77,647                    110,894
       Total            $560,597                   $339,699                    $254,145

           *Small project. 





www.oig.dhs.gov                                5                                    DS-13-01
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

   APPENDIX A
   Report Distribution
   Department of Homeland Security

   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Audit Liaison, DHS

   Federal Emergency Management Agency

   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Chief Procurement Officer
   Audit Liaison (Job Code G-12-047)
   Director, Recovery Division, Region IX
   Deputy Director, Recovery Division, Region IX
   Audit Liaison, Region IX
   Audit Followup Coordinator

   Grantee (California Emergency Management Agency)

   Secretary
   Executive Assistant to the Secretary
   Chief of Staff
   Audit Liaison

   State (California)

   California State Auditor, Bureau of State Audits

   Subgrantee (California Department of Parks and Recreation)

   Secretary, California Natural Resources Agency
   Director, California Department of Parks and Recreation
   Deputy Director, Park Operations
   Special Programs Manager, Facilities Management Division


www.oig.dhs.gov                                6                   DS-13-01
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
